November 2007
Report No. AUD-08-003


FDIC’s Implementation of the
USA PATRIOT Act




            AUDIT REPORT
                              TABLE OF CONTENTS

BACKGROUND                                                                        2

RESULTS OF AUDIT                                                                  7

IMPLEMENTATION OF EXAMINATION PROCEDURES FOR CUSTOMER                             8
IDENTIFICATION PROGRAMS
  Requirements Related to the CIP                                                 9
  Identification of Apparent Violations                                           9
  Conclusion                                                                     12
  Recommendation                                                                 13

IMPLEMENTATION OF EXAMINATION PROCEDURES FOR RISK                                13
ASSESSMENTS
  Examination Guidance for Risk Assessments                                      13
  Institution Preparation and Examiner Evaluations of Risk Assessments           15
  Use of Appendix J in the FFIEC BSA/AML Examination Manual for Assessing Risk   16
  Recommendation                                                                 17

CORPORATION COMMENTS AND OIG EVALUATION                                          17

APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY                                   19
APPENDIX II: STATUS OF REGULATIONS AND EXAMINATION PROCEDURES                    26
             FOR PATRIOT ACT REQUIREMENTS
APPENDIX III: CUSTOMER IDENTIFICATION PROGRAM REQUIREMENTS                       28

APPENDIX IV: CORPORATION COMMENTS                                                30

APPENDIX V: MANAGEMENT RESPONSE TO RECOMMENDATIONS                               32

TABLES
Table 1: Status of Examination Procedures for PATRIOT Act Provisions             3
Table 2: Supervisory and Enforcement Actions for Noncompliance with BSA/AML      4
         and PATRIOT Act Requirements
Table 3: Apparent CIP Violations                                                 11
Table 4: The FDIC’s Activities to Address the Government Performance             22
          and Results Act
Table 5: Synopsis of FDIC OIG Prior Audit Coverage of BSA and PATRIOT Act        23
         Compliance

FIGURES
Figure 1: Risk Assessment Link to the BSA/AML Compliance Program                  6
Figure 2: Risk Categories That Should be Considered During the Risk Assessment   14
          Process
ACRONYMS

AML           Anti-Money Laundering
BSA           Bank Secrecy Act
C&D           Cease and Desist Order
C.F.R.        Code of Federal Regulations
CIP           Customer Identification Program
CMP           Civil Money Penalty
CSBS          Conference of State Bank Supervisors
DSC           Division of Supervision and Consumer Protection
FBA           Federal Banking Agency
FDI           Federal Deposit Insurance
FFIEC         Federal Financial Institutions Examination Council
FIL           Financial Institution Letter
FinCEN        Financial Crimes Enforcement Network
GAO           Government Accountability Office
HIDTA         High Intensity Drug Trafficking Area
HIFCA         High Intensity Financial Crimes Area
MOU           Memorandum of Understanding
OFAC          Office of Foreign Assets Control
OIG           Office of Inspector General
ONDCP         Office of National Drug Control Policy
PATRIOT Act   Uniting and Strengthening America by Providing
               Appropriate Tools Required to Intercept and Obstruct
               Terrorism Act of 2001
RD            Regional Directors
ROE           Report of Examination
TIN           Taxpayer Identification Number
U.S.C.        U.S. Code
ViSION        Virtual Supervisory Information on the Net
                                                                                                                 Report No. AUD-08-003
                                                                                                                        November 2007

                                                  FDIC’s Implementation of the USA PATRIOT Act

                                                  Results of Audit
                                                  The FDIC, in conjunction with the FFIEC, has issued comprehensive examination
Background and Purpose of Audit                   procedures in the FFIEC BSA/AML Examination Manual designed to assist examiners in
                                                  evaluating institution compliance with the AML and terrorist financing provisions of the
The Uniting and Strengthening America by          PATRIOT Act. Additionally, the FDIC has issued supervisory and enforcement
Providing Appropriate Tools Required to           guidance on corrective actions for noncompliance with the BSA and PATRIOT Act and
Intercept and Obstruct Terrorism Act of 2001      referrals of significant BSA violations for possible assessment of civil and/or criminal
(PATRIOT Act) was signed into law on              penalties. The FDIC has taken action in a number of cases to address noncompliance
October 26, 2001. The PATRIOT Act made            with BSA and PATRIOT Act provisions and related regulations. The FDIC has also
a number of amendments to the anti-money          taken steps to strengthen BSA and PATRIOT Act compliance, including training and
laundering (AML) provisions of the Bank           industry outreach, certifications for AML specialists, and establishment of BSA-related
Secrecy Act (BSA) of 1970, which was              performance measures.
passed to prevent banks and other financial
service providers from being used in criminal     Generally, FDIC examiners implemented examination procedures in the FFIEC
activity and to identify the source, volume,      BSA/AML Examination Manual related to the PATRIOT Act. However, the FDIC could
and movement of currency and other                enhance the implementation of examination procedures with respect to CIPs. The FDIC
monetary instruments into or out of the           examiners reviewed CIPs for all 24 of our sampled financial institutions and cited CIP-
United States or deposited in financial           related violations at 5 of those institutions. However, we found other apparent violations
institutions. In addition, the PATRIOT Act        of CIP requirements that were not identified and reported by examiners. The CIP
expands the Treasury Department’s authority       requirements are intended to ensure that a financial institution can form a reasonable
to regulate the activities of U.S. financial      belief that it knows the true identity of its customers. Consistent examiner identification
institutions, particularly their relations with   and reporting of apparent CIP violations can provide the FDIC greater assurance that
individuals and entities with foreign ties.       institutions with weak programs for detecting money laundering and terrorist financing
The PATRIOT Act requires financial                activity are identified and appropriate and timely corrective measures are taken.
institutions to implement a written, board-
approved Customer Identification Program          Although not required by statute or regulation, BSA/AML risk assessments are
(CIP) that is appropriate for the institution’s   emphasized in examination guidance to provide a means for (1) institutions to design
size and type of business.                        risk-based BSA/AML compliance programs, which include internal controls, to mitigate
                                                  risks and (2) examiners to scope and plan their evaluation of the adequacy of BSA/AML
In June 2005, the Federal Financial               compliance programs. Concerning the risk assessments, we found that 21 of 24 sampled
Institutions Examination Council (FFIEC),         institutions had prepared the assessments. Examiners considered the institution-prepared
which includes the FDIC and other federal         risk assessments in BSA/AML examinations and took appropriate action in the three
banking agencies, issued interagency              cases where institutions had not prepared assessments. Although the risk assessment is
guidance in the FFIEC Bank Secrecy                widely used in the design and examination of BSA/AML compliance programs, we noted
Act/Anti-Money Laundering Examination             that examiners were inconsistent in addressing and reporting on the risk categories and
Manual. The manual updates examination            factors listed in the FFIEC BSA/AML Examination Manual. However, an Interagency
procedures for BSA/AML and PATRIOT                Statement issued in July 2007 on enforcement of BSA/AML requirements specifically
Act compliance and emphasizes the                 lists risk assessment as part of the system of internal controls mandated for institutions by
importance of a BSA/AML risk assessment.          regulation. This guidance should focus additional attention on the examination of risk
                                                  assessments, including the use of designated risk categories and factors. Therefore, we
The audit objectives were to determine            are not making recommendations in this area at this time. Finally, we determined that
whether (1) examination procedures are            risk assessments for 8 of the 24 financial institutions were based on a matrix format
designed to evaluate institution compliance       (Appendix J of the examination manual) intended for use by examiners that did not
with the AML and terrorist financing              provide for a detailed assessment of risk categories and factors. Use of this matrix in lieu
provisions of the PATRIOT Act and                 of a more thorough risk assessment could result in BSA/AML risks not being identified.
(2) those procedures were fully and
consistently implemented to provide               Recommendations and Management Response
reasonable assurance that institutions with
weak programs for detecting money                 The report recommends that the Director, DSC (1) clarify guidance to examiners on the
laundering and terrorist financing activity       identification and reporting of apparent CIP violations and (2) provide instructions to
will be identified and appropriate corrective     examiners to clarify the circumstances under which Appendix J would be sufficient for
measures taken.                                   use as a BSA/AML risk assessment. The FDIC’s planned actions are responsive to our
                                                  recommendations.
To view the full report, go to
www.fdicig.gov/2008reports.asp
Federal Deposit Insurance                                                                                   Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                        Office of Inspector General


DATE:                                     November 30, 2007

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  FDIC’s Implementation of the USA PATRIOT Act
                                          (Report No. AUD-08-003)


This report presents the results of the subject FDIC Office of Inspector General (OIG) audit. The
Uniting and Strengthening America by Providing Appropriate Tools Required to Intercept and
Obstruct Terrorism Act of 2001 (PATRIOT Act) 1 was signed into law on October 26, 2001, as a
response to the September 11, 2001 terrorist attacks. Title III of the PATRIOT Act—
International Money Laundering 2 Abatement and Financial Anti-Terrorism Act of 2001 3 —is
intended to facilitate the prevention, detection, and prosecution of international money
laundering and terrorist financing and consists of provisions related to (1) international counter-
money laundering and related measures, (2) Bank Secrecy Act 4 (BSA) amendments and related
improvements that supplement U.S. authority provided under the BSA to detect money
laundering, and (3) currency crimes and protection. The FDIC’s Division of Supervision and
Consumer Protection (DSC) monitors FDIC-supervised financial institutions’ compliance with
the PATRIOT Act Title III requirements.

The audit objectives were to determine whether (1) examination procedures are designed to
evaluate institution compliance with the anti-money laundering (AML) and terrorist financing
provisions of the PATRIOT Act and (2) those procedures were fully and consistently
implemented to provide reasonable assurance that institutions with weak programs for detecting
money laundering and terrorist financing activity will be identified and appropriate corrective
measures taken. We conducted this performance audit in accordance with generally accepted
government auditing standards. Appendix I of this report discusses our objectives, scope, and
methodology in detail.




1
  Public Law No. 107-56.
2
  Money laundering is the process by which criminals or criminal organizations seek to disguise the illicit nature of
their proceeds by introducing them into the stream of legitimate commerce and finance.
3
  Title III of the PATRIOT Act includes 46 sections of which only 12 sections relate to financial institutions. Of
those 12 sections, only 8 need examination procedures. There are nine additional titles of the PATRIOT Act that are
not related to financial institutions or the FDIC’s supervision and examination of financial institutions.
4
  Public Law No. 91-508, codified to 31 U.S. Code (U.S.C.), Section 5311 et seq.
BACKGROUND

Emphasis on AML efforts, in general, and the international fight against money laundering and
terrorist financing, in particular, has risen significantly since the September 11, 2001 terrorist
attacks. The PATRIOT Act made a number of amendments to the AML provisions of the BSA,
also known as the Currency and Foreign Transactions Reporting Act. Congress passed the BSA
to (1) prevent banks and other financial service providers from being used as intermediaries for,
or to hide the transfer or deposit of, money derived from criminal activity and (2) help identify
the source, volume, and movement of currency and other monetary instruments transported or
transmitted into or out of the United States or deposited in financial institutions.

The BSA authorizes the Department of the Treasury (Treasury) to require financial institutions to
establish BSA/AML compliance programs; 5 file certain reports that are used in criminal, tax, or
regulatory investigations or proceedings; and keep certain records of transactions. The BSA’s
implementing regulation 6 is used to aid law enforcement agencies in the investigation of
suspected criminal activity such as illegal drug activities, income tax evasion, and money
laundering by organized crime. The PATRIOT Act expanded the Treasury’s authority to
regulate the activities of U.S. financial institutions, especially their relations with entities and
individuals with foreign ties, and increased the focus on terrorist financing activities. The
Financial Crimes Enforcement Network (FinCEN), a bureau of the Treasury, is the delegated
administrator of the BSA. FinCEN issues regulations and interpretive guidance, provides
outreach to regulated industries, and supports the examination function of the Federal Banking
Agencies (FBA), 7 and pursues civil enforcement actions, when warranted.

Examination Procedures Related to AML and Terrorist Financing Provisions of the
PATRIOT Act

Although overall authority for BSA enforcement and compliance remains with the Treasury, its
regulations delegate authority to the FBAs, including the FDIC, to examine financial institutions
for compliance. In addition, Section 8(s) of the Federal Deposit Insurance (FDI) Act, 8 provides
the FDIC authority to examine and enforce compliance at FDIC-supervised financial institutions.
Since the PATRIOT Act amended the BSA, each BSA/AML examination also encompasses a



5
  The FDIC Rules and Regulations, Section 326.8, Bank Secrecy Act Compliance, and Treasury’s implementing
regulations for BSA/AML and PATRIOT Act compliance, 31 Code of Federal Regulations (C.F.R.) Part 103,
require financial institutions to implement a BSA/AML compliance program that includes the minimum program
requirements (referred to as “pillars”). The pillars include customer identification programs, systems of internal
controls, independent testing, designated BSA compliance officers, and training for appropriate personnel.
6
  31 C.F.R. Part 103.
7
  The FBAs are the Board of Governors of the Federal Reserve System, FDIC, National Credit Union
Administration, Office of the Comptroller of the Currency, and Office of Thrift Supervision, which together form
the Federal Financial Institutions Examination Council (FFIEC).
8
  Codified to 12 U.S.C. 1818(s). The FDI Act requires the FDIC to (1) prescribe regulations requiring financial
institutions to establish and maintain procedures reasonably designed to ensure and monitor compliance; (2) review
such procedures during their examinations of these institutions and report problems with compliance in reports of
examination; and (3) enforce compliance with the BSA monetary transaction recordkeeping and reporting
requirements, including issuance of Cease and Desist (C&D) orders for noncompliance.


                                                        2
review of financial institutions’ compliance with PATRIOT Act requirements. 9 In June 2005,
the FFIEC issued interagency guidance in the FFIEC Bank Secrecy Act/Anti-Money Laundering
Examination Manual (FFIEC BSA/AML Examination Manual or examination manual) to
provide examination procedures related to BSA, AML, PATRIOT Act, and Office of Foreign
Assets Control (OFAC) 10 compliance. The FFIEC members revised the FFIEC BSA/AML
Examination Manual in July 2006 11 to update examination procedures related to BSA/AML and
PATRIOT Act compliance. Table 1 outlines the specific sections of the PATRIOT Act for
which the FDIC and other FBAs have issued examination guidance.

    Table 1: Status of Examination Procedures for PATRIOT Act Provisions
                                                                                               Examination Procedures
                                                                                                Included in the FFIEC
                                                                                               BSA/AML Examination
                              PATRIOT Act Title III Section*                                           Manual
     Section 311-Special Measures for Financial Institutions                                             Yes
     Section 312-Special Due Diligence                                                                   Yes
     Section 313-Prohibition on U.S. Correspondent Accounts                                              Yes
     Section 314-Cooperative Efforts to Deter Money Laundering (Information Sharing)                     Yes
     Section 319-Forfeiture of Funds                                                                     Yes
     Section 325-Concentration Accounts at Financial Institutions                                        Yes
     Section 326-Verification of Identification (Customer Identification Programs)                       Yes
     Section 352-Anti-Money Laundering Programs                                                          Yes
    Source: OIG review of the FFIEC BSA/AML Examination Manual, dated July 28, 2006.
    *Some of the names of the Title III sections have been abbreviated for the purposes of this table.

Appendix II provides additional information on the status of regulations and examination
procedures for PATRIOT Act sections.

Supervisory and Enforcement Guidance Related to the Identification and Correction of
BSA/AML Compliance Program Deficiencies

Noncompliance with BSA/AML and PATRIOT Act requirements could expose financial
institutions to actions from the FDIC and other FBAs, Treasury, and/or Department of Justice.
9
  DSC conducts BSA/AML examinations in conjunction with FDIC risk management examinations and those of
state regulatory agencies that do not incorporate BSA/AML procedures into their examinations. According to DSC,
as of May 14, 2007, six state regulatory agencies did not review BSA/AML compliance during their examinations.
10
   OFAC regulations prohibit financial institutions from engaging in transactions with the governments of, or
individuals or entities associated with, foreign countries against which federal law imposes trade or economic
sanctions. Sanctions also can be used against dangerous groups and individuals, such as international narcotics
traffickers, terrorists, and foreign terrorist organizations, regardless of national affiliation.
11
   On August 2, 2006, the FDIC issued a Financial Institution Letter (FIL) to FDIC-supervised institutions,
announcing the release of the revised FFIEC BSA/AML Examination Manual. The FIL acknowledged that
the manual included (1) guidance on risk-based policies, procedures, and processes for banking organizations
to comply with the BSA and safeguard operations from money laundering and terrorist financing and
(2) enhanced guidance on the risk assessment process, including the development of BSA/AML risk
assessments and examiner evaluation of those assessments. In addition to the 2006 revision, the FFIEC
issued a revised BSA/AML Examination Manual on August 24, 2007. Significant updates to the
2007 examination manual include clarification on regulatory expectations between lower-risk and higher-risk
customers for customer due diligence purposes.




                                                             3
Specifically, the FDIC can impose supervisory and/or enforcement actions and has issued
guidance to its examiners that outlines its authority to impose such actions. For example, in
October 2006, the FDIC issued a Regional Directors (RD) memorandum entitled, Enforcement of
Bank Secrecy Act/Anti-Money Laundering Requirements. The memorandum provides specific
guidance to assist examiners in determining when to recommend C&Ds for noncompliance with
BSA/AML and PATRIOT Act requirements. In addition, on July 19, 2007, the Interagency
Statement on Enforcement of Bank Secrecy Act/Anti-Money Laundering Requirements
(Interagency Statement) was issued by the FBAs, establishing the agencies’ policy on
circumstances in which an agency will issue a C&D to address noncompliance with certain
BSA/AML requirements. The FDIC transmitted the Interagency Statement to the institutions it
supervises on August 23, 2007. In accordance with Section 8(s) of the FDI Act, the FDIC is
authorized to issue a C&D if an institution has failed to establish and maintain a BSA
compliance program or has failed to correct any previously reported problem with the program.

The FDIC has imposed actions to correct noncompliance with BSA and PATRIOT Act
provisions, as indicated in Table 2. In addition, in compliance with an information-sharing
Memorandum of Understanding 12 (MOU) between FinCEN and the FBAs, the FDIC has
referred certain financial institutions to FinCEN for consideration of civil money penalties
(CMP) for noncompliance with BSA provisions.

Table 2: Supervisory and Enforcement Actions for Noncompliance with BSA/AML and
PATRIOT Act Requirements
  FDIC Supervisory and Enforcement Actions         Number of Actions Imposed
 Informal Supervisory Actionsa                                131
                            b
 Formal Enforcement Actions                                    11
 Referrals Forwarded to FinCEN                                 22
Source: OIG review of FDIC Formal and Informal Action Tracking System data for the period September 1, 2005
through October 31, 2006; review of ROEs for sampled financial institutions; discussions with DSC officials; and
review of referrals that DSC forwarded to FinCEN for the period September 1, 2005 through December 31, 2006.
a
  Informal supervisory actions include Memorandum of Understanding (MOU), Bank Board Resolution, and any
other informal action taken by the FDIC.
b
  Formal enforcement actions include C&D, CMP, and any other formal action taken by the FDIC.

Customer Identification Programs

Of the five BSA/AML compliance program pillars (see footnote 5), only the requirement for
financial institutions to implement a Customer Identification Program (CIP) directly resulted
from enactment of the PATRIOT Act. Specifically, Section 326 of the PATRIOT Act, which is
implemented through Treasury regulations 31 C.F.R. Part 103.121 and Section 326.8 of the
FDIC’s Rules and Regulations, requires banks to implement a written, board-approved CIP that

12
   On September 30, 2004, the FBAs entered into an MOU with FinCEN to provide information related to
BSA/AML examinations and enforcement actions and each FBA’s BSA examination program. It is FDIC policy to
refer significant BSA violations by FDIC-supervised institutions to FinCEN for review and possible assessment of
civil and/or criminal penalties. Referrals to FinCEN should generally be considered when the types and nature of
apparent violations of the BSA expose the institution to a heightened level of exposure to potential money
laundering activity, demonstrate a willful or flagrant disregard of the requirements of the BSA, or result from
nonexistent or seriously deficient BSA/AML compliance programs.



                                                        4
is appropriate for the institution’s size and type of business. The CIP must include (1) account-
opening 13 procedures that specify the identifying information that will be obtained from each
customer, 14 and (2) reasonable and practical risk-based procedures for verifying the identity of
each customer. These procedures must be based on the bank’s assessment of the relevant risks,
including those presented by the various types of accounts maintained by the bank; the various
methods of opening accounts provided by the bank; the various types of identifying information
available; and the bank’s size, location, and customer base. The FFIEC BSA/AML Examination
Manual identifies an objective for examiners to assess a bank’s compliance with the statutory
and regulatory requirements for a CIP. Appendix III provides additional information on the
requirements related to CIPs.

Risk Assessments

Various sections of the PATRIOT Act, such as those addressing CIPs, correspondent accounts, 15
and concentration accounts, 16 address the linkage between risk and the establishment of
appropriate controls within the BSA/AML compliance programs of financial institutions. These
risks include terrorist financing, money laundering, and other criminal activity. One means by
which institutions can gain an understanding of these risks is through development of a
BSA/AML risk assessment. BSA/AML risk assessments are not specifically required by statute
or regulation, but are set forth in the FFIEC BSA/AML Examination Manual as a good business
practice for institutions to use in developing risk-based controls in their BSA/AML compliance
programs and, therefore, also for compliance with the PATRIOT Act. In fact, in the 2006
version of the manual, risk assessment was given its own section to emphasize its importance in
the design of effective controls at institutions and in the BSA/AML examination process.
Figure 1, on the next page, shows how the financial institution’s risk assessment links to the
overall BSA/AML compliance program.




13
   For CIP purposes, an account is a formal banking relationship to provide or engage in services, dealings, or other
financial transactions and includes a deposit account, a transaction or asset account, a credit account, or another
extension of credit. An account also includes a relationship established to provide a safe deposit box or other
safekeeping services or to provide cash management, custodian, or trust services.
14
   For CIP purposes, a customer is defined as a person (an individual, a corporation, partnership, a trust, an estate, or
any other entity recognized as a legal person) who opens a new account, an individual who opens a new account for
another individual who lacks legal capacity, and an individual who opens a new account for an entity that is not a
legal person. There are certain situations that can be excluded from the definition of customer for CIP purposes
such as (1) a person who does not receive banking services, for example a person whose loan application is denied;
or (2) an existing customer, as long as the bank has a reasonable belief that it knows the customer’s true identity.
15
   A correspondent account is maintained by a bank with another bank for the deposit or placement of funds for
themselves or their customers. Although these accounts may be developed and used primarily for legitimate
purposes, international correspondent bank accounts may pose increased risk of illicit activities, including money
laundering and terrorist financing.
16
   A concentration account is an internal account established by the bank to facilitate the processing and settlement
of multiple or individual customer transactions within the bank, including a suspense, settlement, intra-day, sweep,
or collection account.



                                                            5
     Figure 1: Risk Assessment Link to the BSA/AML Compliance Program

                 Risk Assessment                                     Internal Controls

                Identify & Measure                                  Develop Applicable:
                        Risk:                                             Policies
                      Products                                          Procedures
                      Services                                            Systems
                    Customers                                            Controls
                Geographic Locations



                                                  Risk-Based BSA Compliance Program:
                                                             Internal Controls
                                                                   Audit
                                                         BSA Compliance Officer
                                                                 Training
     Source: FFIEC BSA/AML Examination Manual, Appendix I.




According to the FFIEC BSA/AML Examination Manual, examiner scoping and planning for
financial institution examinations generally begins with an analysis of the institution’s
BSA/AML risk assessment. 17 Examiners should determine whether the institution has
adequately identified the risk associated with compliance with BSA/AML requirements and
implementation of the PATRIOT Act in its banking operations which, as indicated above,
include its products, services, customers, and geographic locations. Further, the July 2007
Interagency Statement lists risk assessment as part of the system of internal controls, which, like
the CIP, is one of the five required pillars of a BSA/AML compliance program.

Additional Steps to Address PATRIOT Act Compliance

In addition to issuing FILs to FDIC-supervised institutions to inform them of related examination
and enforcement guidance, the FDIC has taken a number of steps to strengthen PATRIOT Act
compliance. For example, the FDIC has:

      •   Conducted training and outreach sessions for its examiners and the banking industry,
          including providing presentations at various industry conferences and seminars targeting
          BSA/AML and counter-financing of terrorism issues. Training and outreach activities
          included discussions on the revisions to the 2006 FFIEC BSA/AML Examination Manual.


17
  In addition to reviewing the financial institution’s BSA/AML risk assessment, during the scoping and planning
process, examiners generally analyze prior examination reports and work papers; independent reviews or audit
results; and other information, including but not limited to, training documentation, suspicious activity reporting
data, and OFAC compliance information.



                                                          6
     •   Taken steps to ensure that examiners complete a mandatory training curriculum related to
         BSA/AML and the PATRIOT Act and certified a number of its BSA subject matter
         experts under the Association of Certified AML Specialists 18 certification program.

     •   Issued RD Memoranda, including the updated FDIC Risk Management Manual of
         Examination Policies; various fact sheets; and frequently asked questions on issues such
         as CIP and information sharing. 19

     •   Revised BSA-related violation codes to specifically include PATRIOT Act requirements.

     •   Established performance measures that address BSA/AML and PATRIOT Act
         compliance.

     •   Created a National BSA/AML Task Force and participated in various BSA/AML and
         PATRIOT Act-related working groups to address BSA/AML policy and procedural
         matters. Under the auspices of the FFIEC BSA/AML Working Group, which was
         created in June 2004, the FBAs developed the interagency examination procedures in the
         FFIEC BSA/AML Examination Manual. In addition, the FDIC is a member of the BSA
         Advisory Group Examination Subcommittee, which meets with the banking industry to
         solicit feedback regarding money-laundering risks, 20 and works with the Conference of
         State Bank Supervisors (CSBS) on updates to BSA/AML examination guidance. 21


RESULTS OF AUDIT

The FDIC, in conjunction with the FFIEC, has issued comprehensive examination procedures in
the FFIEC BSA/AML Examination Manual designed to assist examiners in evaluating institution
compliance with the AML and terrorist financing provisions of the PATRIOT Act. Additionally,
the FDIC has issued supervisory and enforcement guidance on corrective actions for
noncompliance with the BSA and PATRIOT Act and referrals of significant BSA violations to
FinCEN for review and possible assessment of civil and/or criminal penalties. Notably, the
FDIC has taken formal and informal action in a number of cases to address noncompliance with
BSA and PATRIOT Act provisions and related regulations and made referrals to FinCEN as
required based on the information-sharing MOU with FinCEN. The FDIC has also taken steps to

18
   The Association of Certified Anti-Money Laundering Specialists is a membership-based organization that serves
as a platform for career development and professional networking for individuals in the AML field. The
organization provides resources for financial institutions and related businesses that help train, identify, and locate
individuals who specialize in money-laundering control policies, procedures, and regulations.
19
   Information sharing relates to Section 314 of the PATRIOT Act (see Appendix II).
20
   The BSA Advisory Group was established on March 10, 1994 to give the Treasury advice on strengthening AML
programs and simplifying currency reporting forms. The broad-based advisory group includes officials from federal
and state government agencies, banking and other private-sector enterprises where money-laundering activities are
sometimes attempted, and law enforcement. The Director of FinCEN serves as the chair of the group, which
consists of 52 members; meets bi-annually; and includes subcommittees for issues, including, but not limited to,
examinations, suspicious activity reporting, and privacy and security.
21
   CSBS provides insight into the state perspective on federal regulatory policy proposals that directly affect state-
chartered banks and state bank supervisors. CSBS represents state supervisors on the working groups of the FFIEC
and helps to coordinate issues for the state banking departments on supervisory-related issues.



                                                          7
strengthen BSA and PATRIOT Act compliance, including training and industry outreach,
certifications for AML specialists, and the establishment of BSA-related performance measures.

Generally, FDIC examiners implemented examination procedures in the FFIEC BSA/AML
Examination Manual related to the PATRIOT Act. However, the FDIC could enhance the
implementation of examination procedures with respect to CIPs. The FDIC examiners reviewed
CIPs for all 24 of our sampled financial institutions and cited CIP-related violations at 5 of those
institutions. However, we found other apparent violations of CIP requirements that were not
consistently identified and reported by examiners. The CIP requirements are intended to ensure
that a financial institution can form a reasonable belief that it knows the true identity of its
customers. Consistent examiner identification and reporting of apparent CIP violations can
provide the FDIC greater assurance that institutions with weak programs for detecting money
laundering and terrorist financing activity are identified and appropriate and timely corrective
measures are taken (Implementation of Examination Procedures for Customer Identification
Programs).

Although not specifically required by statute or regulation, BSA/AML risk assessments are
emphasized in examination guidance to provide a means for (1) institutions to design risk-based
BSA/AML compliance programs, which include internal controls, to mitigate risks and
(2) examiners to scope and plan their evaluation of the adequacy of BSA/AML compliance
programs. Concerning the risk assessments, we found that 21 of 24 sampled institutions had
prepared the assessments. Examiners considered the institution-prepared risk assessments in
BSA/AML examinations and took appropriate action in the 3 cases where institutions had not
prepared assessments. While it is notable that risk assessment is widely used in the design and
examination of BSA/AML compliance programs, we observed inconsistencies in addressing and
reporting on the risk categories and factors listed in the FFIEC BSA/AML Examination Manual.
However, the July 2007 Interagency Statement on enforcement of BSA/AML requirements
specifically lists risk assessment as part of the system of internal controls mandated for
institutions by regulation. The Interagency Statement should focus additional attention on the
design and examination of risk assessments, including the use of designated risk categories and
factors. Therefore, we are not making recommendations in this area at this time. Finally, we
determined that risk assessments for 8 of the 24 financial institutions were based on a matrix
format intended for use by examiners that did not provide for a detailed assessment of risk
categories and factors. Use of this matrix in lieu of a more thorough risk assessment could result
in BSA/AML risks not being identified (Implementation of Examination Procedures for Risk
Assessments).


IMPLEMENTATION OF EXAMINATION PROCEDURES FOR CUSTOMER
IDENTIFICATION PROGRAMS

The FDIC could enhance the implementation of examination procedures in the FFIEC
BSA/AML Examination Manual concerning institution CIPs. Although examiners reviewed
CIPs for all of the 24 sampled financial institutions and cited CIP-related violations at 5 of those
institutions, we found other apparent violations of CIP requirements in the programs that were
not consistently identified and reported by examiners to the FDIC and to financial institution



                                                 8
management. The CIP requirements, such as having procedures to verify a customer’s identity
prior to opening an account, are intended to ensure that the financial institution can form a
reasonable belief that it knows the true identity of its customers. Consistent examiner
identification and reporting of apparent CIP violations can provide the FDIC greater assurance
that institutions with weak programs for detecting money laundering and terrorist financing
activity are identified and appropriate and timely corrective measures are taken.

Requirements Related to the CIP

Section 326 of the USA PATRIOT Act 22 requires financial institutions to implement a written,
board-approved CIP, appropriate for the institution’s size and type of business, which includes,
at a minimum, procedures for:

     •   verifying a customer’s true identity to the extent reasonable and practicable and defining
         the methodologies to be used in the verification process,
     •   collecting specific identifying information from each customer when opening an account,
     •   responding to circumstances and defining actions to be taken when a customer’s true
         identity cannot be appropriately verified with “reasonable belief,”
     •   maintaining appropriate records during the collection of information and verification of a
         customer’s identity,
     •   verifying a customer’s name against a federal government list of known or suspected
         terrorists or terrorist organizations, 23 and
     •   providing customers with adequate notice that the bank is requesting identification to
         verify their identities.

The FFIEC BSA/AML Examination Manual directs examiners to assess financial institution
compliance with the statutory and regulatory requirements for CIPs. Examiners should verify
whether a financial institution’s policies, procedures, and processes include a comprehensive
program to identify customers who open an account after October 1, 2003. The CIP must be
examined as part of the institution’s BSA/AML compliance program. Additionally, the manual
states that examination findings should be discussed with the bank’s management and all
significant findings must be included in the ROE. In addition, the FDIC’s Risk Management
Manual of Examination Policies provides guidance to examiners related to the institution’s
written, board-approved CIP. The manual outlines specific requirements such as (1) account-
opening procedures that specify the identifying information to be obtained from each customer,
(2) procedures for verifying the information, and (3) record retention requirements.

Identification of Apparent Violations

Our review of written institution CIP policies, examination workpapers, and ROEs for
24 sampled financial institutions indicated that the institutions’ CIPs did not always address all
CIP requirements necessary to verify the identity of customers who open new accounts with the
institutions. We also found that examiners were not consistent in some cases in their

22
  Implemented by 31 C.F.R. 103.121.
23
  According to the FFIEC BSA/AML Examination Manual, there are no designated government lists against which
banks could compare customer names specifically for CIP purposes.



                                                     9
identification of apparent violations of CIP requirements. For example, some financial
institutions were cited for not including all required customer verification procedures in their
CIPs, while others were cited only for apparent violations identified during transaction testing
performed as part of the examination, even though the CIPs for those institutions were also found
to not include all requirements. In fact, for the five financial institutions in our sample where
CIP violations were cited, examiners’ decisions to cite the institutions were generally based on
the results of their transaction testing rather than a review of the CIP. Examiners told us that
they do not report in the ROE those deficiencies identified solely in the CIP policies – rather, the
examiners usually recommend orally or informally that bank management consider those
deficiencies in updates to the CIP. Additionally, some examiners included recommendations in
the ROEs related to complying with CIP requirements but did not cite violations. The
inconsistencies in reporting could result in weak compliance programs remaining uncorrected for
extended periods.

Based on our review of the examination workpapers and ROEs for the 24 sampled institutions,
including copies of the institutions’ CIP policies, we determined that:

   •   CIPs for the 5 institutions cited by DSC examiners for apparent CIP violations had other
       apparent CIP violations that were not cited in the ROE violations section,

   •   CIPs for the each of the remaining 19 financial institutions in our sample had at least
       1 apparent CIP violation that was not cited, and

   •   3 institutions could have been but were not cited for 5 or more apparent CIP violations.

Table 3, on the next page, provides a synopsis of CIP violations cited by examiners and some of
the more frequent apparent CIP violations at the 24 sampled institutions that were not cited by
the examiners.




                                                10
Table 3: Apparent CIP Violations
                                                                                                              Number of Apparent CIP Violations
                                                                                                              Apparent CIP          Apparent CIP
                                        Violation Description                                               Violations Cited by   Violations not Cited
 (Based on PATRIOT Act Section 326, Treasury 31 C.F.R. Section 103.121, and DSC violation descriptions)         Examiners            by Examiners
Failure of non-documentary procedures to address certain situations, such as where an individual is                                        15
unable to present an unexpired government-issued identification document or where the customer opens
an account without appearing in person.
Failure of CIP to include procedures when customer’s identity is unknown and the financial institution                                    12
cannot form a reasonable belief that it knows the true identify of a customer.
The CIP does not address when to obtain information about account control when an account is opened                 1                     10
by a customer that is not an individual, and information about individuals with authority or control over
such account, including signatories, is needed in order to verify the customer’s identify.
Failure to implement a written CIP appropriate for its size and type of business.                                                          6

Failure of CIP to contain procedures for verifying customer identity within a reasonable time after the                                    3
account is opened.
Failure of CIP to contain procedures that describe nondocumentary methods used, including public                                           3
databases, checking references with other financial institutions, and obtaining a financial statement.
Failure to keep minimum records required under Section 103.121 for a period of 5 years after the                    4                      3
account is closed, including the customer’s name; date of birth for individuals; address; and
identification number.
Failure to obtain minimum information prior to account opening, such as the customer’s name; date of                3
birth for individuals; address; and identification number.
Failure to properly address situations where the Tax Identification Number (TIN) is not obtained,                   1
including confirmation that an application for a TIN was filed before the customer opened the account
and to obtain the TIN within a reasonable period of time after the account is opened.
Failure to meet certain conditions if relying on another financial institution, such as an affiliate, to            1
perform any procedures included in its CIP.
Failure of CIP to specify which identifying information will be obtained from each customer to open an              1
account.
Source: OIG review of CIPs, examination work papers, and ROEs for sampled financial institutions.




                                                                            11
In summary, although examiners cited some financial institutions for apparent CIP violations, all
24 of the financial institutions in our sample had apparent violations that were not cited in the
ROEs. The need to cite apparent violations of CIP requirements when they occur was recently
emphasized in the October 4, 2006 RD memorandum entitled, Enforcement of Bank Secrecy
Act/Anti-Money Laundering Requirements, which states that apparent violations of individual
pillars of the BSA/AML compliance program (CIP is one of the pillars) should be cited when
detected. Importantly, supervisory actions were taken with regard to one of the five sampled
institutions cited in the ROEs for apparent CIP violations but were not taken for the other four
institutions. As established by Section 8(s)(3)(B) of the FDI Act 24 apparent violations that
persist across multiple examinations are subject to a C&D to correct the underlying compliance
problem at the institution. Therefore, it is important for examiners to cite CIP violations when
detected.

Conclusion

CIPs, which should be designed to ensure that financial institutions know the true identity of
their customers, are required to be included in the institutions’ overall BSA/AML compliance
program and to address all of the program requirements specified by the PATRIOT Act and
FDIC Rules and Regulations. An effective CIP helps to ensure that a financial institution knows
the true identity of its customers and serves as a deterrent to criminal use of the nation’s financial
system. We consider the inconsistencies in the identification and reporting of apparent CIP
violations to be indicative of the need for additional instruction to examiners regarding their
review of CIPs. Consistent examiner identification and reporting of apparent CIP violations will
provide DSC greater assurance that (1) FDIC-supervised financial institutions are complying
with BSA and PATRIOT Act requirements and (2) institutions with weak programs for detecting
money laundering and terrorist financing activity are identified and appropriate and timely
corrective measures are taken.

DSC stated that, in determining whether there are apparent violations, examiners consider not
only the institution’s CIP policy but also any supplemental procedures and forms used by the
institution to ensure BSA compliance. To the extent that these procedures or forms were in the
institution’s overall BSA policy, we included these documents in our review. However, these
procedures and forms were not always included in the examination workpapers, so it is possible,
based on this supplemental information, that certain deficiencies in institution CIP policies might
not be considered apparent violations by the examiners. Also, some examiners informed us that
they only cited apparent violations based on transaction testing, while other examiners cited
apparent violations based on CIP policy deficiencies. Consequently, there appears to be a need
for additional examination guidance addressing the consideration of supplemental procedures
and forms in evaluating CIP policies and whether transaction testing is a necessary basis for
citing apparent CIP violations.




24
  RD Memorandum entitled, Enforcement of Bank Secrecy Act/Anti-Money Laundering Requirements, dated
October 4, 2006, provides guidance on actions that the FDIC is authorized to implement under Section 8(s)(3)(B) of
the FDI Act.


                                                       12
Recommendation

We recommend the Director, DSC:

 1. Clarify guidance to examiners on the identification and reporting of apparent CIP violations,
    including the consideration of supplemental procedures and forms and whether transaction
    testing is a necessary basis for citing apparent CIP deficiencies, to ensure that financial
    institutions implement CIPs appropriate for their BSA risk profile.


IMPLEMENTATION OF EXAMINATION PROCEDURES FOR RISK ASSESSMENTS

Although not specifically required by statute or regulation, BSA/AML risk assessments are
emphasized in examination guidance to provide a means for (1) institutions to design risk-based
BSA compliance programs, which include PATRIOT Act requirements, to mitigate risks and
(2) examiners to scope and plan their evaluation of the adequacy of BSA/AML compliance
programs. We found that 21 of 24 sampled institutions had prepared risk assessments, and
examiners took appropriate action when the assessments were not prepared. While it is notable
that risk assessment is widely used by institutions to design BSA/AML compliance programs, we
observed inconsistencies in addressing and reporting on the risk categories and factors
designated in the BSA/AML Examination Manual. In addition, we determined that risk
assessments for 8 of the 24 financial institutions were based on a matrix format, which did not
provide for full consideration of the designated risk categories and factors. Use of this matrix in
lieu of a risk assessment could result in BSA/AML risks not being identified.

Examination Guidance for Risk Assessments

In 2006, the FFIEC members revised the FFIEC BSA/AML Examination Manual to, among
other things, add a separate section dedicated to the development and evaluation of financial
institution risk assessments. 25 The guidance states that financial institutions should adequately
assess and document the risk exposures of the institution by identifying specific products and
services, customers and entities, and geographic locations unique to the institution. For example,
institutions located in high-risk geographic areas, such as High Intensity Financial Crimes Areas
(HIFCA) 26 or High Intensity Drug Trafficking Areas (HIDTA), 27 are normally viewed as having
a higher risk of criminal activity. We noted that 20 of the 24 financial institutions included in
our sample were located in these high-risk areas. However, geographic location alone does not


25
   The risk assessment section in the FFIEC BSA/AML Examination Manual was also added to promote consistency
in this area, consolidate previous guidance on this topic, and provide additional instruction and support.
26
   HIFCAs, announced in the 1999 National Money Laundering Strategy, were conceived in the Money Laundering
and Financial Crimes Strategy Act of 1998 as a means to concentrate various levels of law enforcement (federal,
state, and local) in high-intensity money laundering areas. Currently, there are seven regional HIFCA groups.
27
   The Anti-Drug Abuse Act of 1988 and the Office of National Drug Control Policy (ONDCP) Reauthorization Act
of 1998 authorized the Director of ONDCP to designate areas within the United States that exhibit serious drug
trafficking problems and harmfully impact other areas of the country as HIDTAs. The HIDTA Program provides
additional federal resources to those areas to help eliminate or reduce drug trafficking and its harmful consequences.
Currently, there are 28 geographical areas designated as HIDTAs.



                                                         13
necessarily determine a customer’s or transaction’s risk level. Figure 2 provides additional
details on the three risk categories.



             Figure 2: Risk Categories That Should be Considered During the Risk Assessment Process

   Products and Services                           Customers and Entities
 9 Funds Transfers                               9 Nonresident Aliens and Accounts of Foreign Individuals
 9 Private Banking Activities                    9 Politically Exposed Persons
 9 Correspondent Accounts                        9 Professional Service Providers (such as attorneys and accountants)
 9 Pouch Activities                              9 Cash Intensive Businesses
                                                 9 Non-Bank Financial Institutions, including Money Services
                                                    Businesses


                                   Geographic Locations
                         9 Countries Subject to OFAC Sanctions
                         9 Countries Identified as Supporting International Terrorism
                         9 Jurisdictions of Primary Money Laundering Concern
                         9 Major Money Laundering Countries and Jurisdictions
                         9 HIFCA
                         9 HIDTA

 Source: 2006 FFIEC BSA/AML Examination Manual.


The FFIEC BSA/AML Examination Manual also discusses five factors to be considered in its
risk assessment process:

  •   purpose of the account,
  •   actual or anticipated activity,
  •   nature of the customer’s business,
  •   customer’s location, and
  •   types of products and services used by the customer.

The factors are applied as part of a detailed analysis of bank data—the risk assessment—to gain
an understanding of the bank’s risk profile, including the varying levels of risk associated with
the institution’s activities and customers. The examination manual states that a risk assessment
should be used by the bank to design effective risk-based controls for inclusion in its BSA/AML
compliance program. In this regard, the manual indicates that institutions are expected to
address the varying levels of risk associated with the categories specified above to facilitate the
design and implementation of effective and efficient controls to mitigate identified risks. In
addition, the examination manual states that analysis of specific risk factors is important because
within any type of product or category of customer, there will be account holders that pose
varying levels of risk.

The manual also states that examiners should use a risk assessment to scope, plan, and conduct
examinations for BSA and PATRIOT Act compliance and to make an ultimate decision on the
adequacy of the overall BSA/AML compliance program. According to the manual, examiners
should review the institution’s risk assessment, if one exists; independent audit results, including
results of an independent review of the bank’s BSA/AML risk assessment; and prior examination



                                                            14
results in addition to other information. If a financial institution has not completed a risk
assessment or the examiner concludes that the bank’s risk assessment is inadequate, the manual
states that the examiner must complete a risk assessment based on available information and use
Appendix J of the examination manual for that purpose. Further, examiners should conduct
transaction testing to evaluate the adequacy of the bank’s compliance with regulatory
requirements; determine the effectiveness of its policies, procedures, and processes; and evaluate
suspicious activity. The manual states that transaction testing is an important factor in forming
conclusions about the integrity of the bank’s overall controls and risk management processes.

The manual further states that examiners should evaluate the adequacy of an institution’s
BSA/AML risk assessment process. Examiners should also determine whether:

     •   the BSA/AML compliance program is effectively monitored and supervised in relation to
         the bank’s risk profile as determined by the risk assessment and ascertain whether the
         BSA/AML compliance program is effectively mitigating the bank’s overall risk;

     •   internal controls ensure compliance with the BSA and provide sufficient risk
         management, especially for high-risk operations (considering products, services,
         customers, and geographic locations);

     •   bank management’s lack, or inaccurate assessment, of the bank’s BSA/AML risks could
         be the underlying cause of policy, procedure, or process deficiencies; and

     •   there is a need for corrective actions, including the possibility of requiring the financial
         institution to conduct more detailed risk assessments.

Institution Preparation and Examiner Evaluations of Risk Assessments

For the 24 sampled institutions, we determined that 3 institutions had not prepared risk
assessments. In these cases, examiners took appropriate action. 28 Concerning the remaining
21 sampled institutions, FDIC examiners considered the institution-prepared risk assessment in
BSA/AML examinations. However, we noted the following inconsistencies in the design of the
institutions’ risk assessments and related examinations by the FDIC.

     •   Seven financial institutions had prepared BSA/AML risk assessments that included
         comprehensive analyses of each of the risk categories and factors in the FFIEC
         BSA/AML Examination Manual and specified associated risk levels. However, risk

28
  For two of the three institutions without risk assessments, examiners completed a risk matrix—Appendix J— in
accordance with the guidance in the FFIEC BSA/AML Examination Manual. For the third institution, the examiner
concluded that the bank had not risk-rated its customer base, including money services businesses, embassy
personnel, politically exposed persons, nonresident alien off-shore accounts, and foreign corporations. The bank
also had not established and fully implemented risk-based customer due diligence or an adequate suspicious activity
monitoring system, nor had the bank’s independent audit addressed these areas or the absence of a BSA/AML risk
assessment. The examiner cited the bank for violations related to internal controls. Although neither the bank nor
the examiner had completed a risk assessment in this case, the examiner took a positive step and recommended an
MOU that included provisions related to risk assessment, customer due diligence, and suspicious activity
monitoring.



                                                        15
       assessments for 14 institutions did not address at least one of the risk categories and
       factors and/or did not specify an associated risk level.

   •   Twelve examinations documented an overall conclusion on the adequacy of the risk
       assessment. In the remaining nine examinations, there was no apparent conclusion.

   •   Seven institutions had at least two consecutive examinations that identified deficiencies
       related to the institutions’ risk assessments. However, internal control violations were
       cited in only four of these seven cases.

It is notable that institutions are generally using BSA/AML risk assessments as a component in
the design and implementation of their compliance programs. As indicated above, 21 of
24 institutions had prepared risk assessments, and examiners documented conclusions on the
adequacy of 12 of 21 assessments prepared by the institutions. Consistent examiner
consideration and reporting on risk categories and factors listed in the FFIEC BSA/AML
Examination Manual can provide the FDIC greater assurance that financial institutions identify
BSA/AML-related risks and design effective risk-based controls necessary to mitigate those
risks.

The Interagency Statement, issued on July 19, 2007, lists risk assessments as part of the system
of internal controls for purposes of issuing C&Ds. This guidance has the potential to address the
inconsistencies we noted in the design and examination of financial institution risk assessments.
Specifically, the fact that risk assessment is now linked directly to the internal control pillar of
the required BSA/AML compliance program focuses institution attention on preparing
comprehensive risk assessments. In addition, directly linking the risk assessment to the internal
control pillar should focus the examiner’s attention on the importance of concluding on the
adequacy of risk assessments and the citing of violations, where appropriate. Therefore, we are
not making recommendations to address this matter at this time.

Use of Appendix J in the FFIEC BSA/AML Examination Manual for Assessing Risk

When an institution has not completed or has an inadequate risk assessment, the FDIC expects
examiners to obtain a general understanding of a bank’s products and services, customers and
entities, and geographic locations. The FFIEC BSA/AML Examination Manual instructs
examiners to use Appendix J of the manual for this purpose. Because the risk assessment
process should be comprehensive, it is understandable that examiners cannot conduct a detailed
analysis of financial institution risks and that the high-level profile provided by Appendix J is
appropriate for their use. In two cases, we noted that examiners used Appendix J because the
BSA/AML risk assessment had not been completed by the institution.

However, financial institution use of Appendix J does not provide for detailed analysis of data
related to five of the eight risk categories and factors that are part of the risk assessment process
and evaluation of the bank’s activities. According to the FFIEC BSA/AML Examination
Manual, the complete analysis gives bank management a better understanding of the institution’s
risk profile in order to develop the appropriate policies, procedures, and processes to mitigate the




                                                 16
overall risk. Specifically, Appendix J does not include a detailed analysis of data for the
following five factors:

     •     purpose of the account,
     •     actual or anticipated activity in the account,
     •     nature of the customer’s business,
     •     customer’s location, and
     •     types of products and services used by the customer.

The detailed analysis of the above five risk factors is important because, as stated in the FFIEC
BSA/AML Examination Manual, within any type of product or category of customer, there will
be accountholders that pose varying levels of risk.

We determined that 8 of the 24 financial institutions had used Appendix J, or a modified version
of Appendix J, for their risk assessments. Although the manual recognizes that there are many
formats that banks may use to effectively document a risk assessment, Appendix J, which is
provided for examiner use—not institution use—did not provide for a detailed assessment of the
risk factors listed above. The inclusion of Appendix J in the manual may give the impression to
financial institutions that this format is acceptable and covers all risk categories and factors that
should be assessed by institutions. Therefore, DSC should propose changes to Appendix J to
clarify that it is not intended to be used by financial institutions in lieu of performing a
comprehensive BSA/AML risk assessment.

DSC management indicated to us, during a discussion of our audit results, that institutions are
not required to conduct BSA/AML risk assessments, although most institutions do so as a good
management practice. DSC management also stated that there may be low-risk institutions for
which examiners conclude that Appendix J provides a sufficient risk assessment. However, we
found no criteria governing the definition of a low-risk institution or the use of Appendix J in
lieu of a more comprehensive risk assessment. For example, in one case, we found that a large,
complex institution with elevated BSA/AML risk used Appendix J for its risk assessment.
Instructions to examiners would be beneficial to clarify the circumstances under which
Appendix J would be sufficient for institution risk assessments.

Recommendation

We recommend the Director, DSC:

2.       Provide instructions to examiners to clarify the circumstances under which Appendix J
         would be sufficient for use as a BSA/AML risk assessment.


CORPORATION COMMENTS AND OIG EVALUATION

On November 20, 2007, the Director, DSC provided a written response to a draft of this report.
DSC’s response is presented in its entirety as Appendix IV to this report. Regarding
recommendations 1 and 2, by March 30, 2008, DSC will remind examination staff of supervisory



                                                  17
expectations and the appropriate utilization of guidance regarding the identification and reporting
of apparent CIP violations and use of Appendix J.

DSC’s actions are responsive to our recommendations. A summary of management’s response
to the recommendations is in Appendix V. The recommendations are resolved but will remain
open until we have determined that agreed-to corrective actions have been completed and are
effective.




                                                18
                                                                                    APPENDIX I


                       OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

The objectives of this audit were to determine whether (1) examination procedures are designed
to evaluate institution compliance with the AML and terrorist financing provisions of the
PATRIOT Act and (2) those procedures were fully and consistently implemented to provide
reasonable assurance that institutions with weak programs for detecting money laundering and
terrorist financing activity will be identified and appropriate corrective measures taken. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We performed our audit from September
2006 through May 2007.

Scope and Methodology

To achieve our audit objectives, we:

   •   Obtained an understanding of FDIC and FFIEC guidance related to examination
       procedures for determining PATRIOT Act and BSA compliance by reviewing
       appropriate examiner and financial institution guidance.

   •   Interviewed DSC officials in Washington, D.C., and selected field offices and
       representatives of the FDIC’s Legal Division in Washington, D.C.

   •   Identified and reviewed applicable criteria, including laws, rules, and regulations;
       examination guidance; and authorities related to examination and enforcement of BSA
       and PATRIOT Act compliance and the citing and tracking of violations related to
       compliance.

   •   Reviewed the following:

             •   Federal Register notices and other agency and regulatory reports and related
                 documents to gain an understanding of the FBAs’ roles and responsibilities in
                 implementing the PATRIOT Act.

             •   The Treasury’s Web site, including FinCEN’s Web site, to obtain background
                 information on the BSA and PATRIOT Act and to determine the status of the
                 Treasury’s rulemaking (proposed, interim, and final rules) related to the
                 PATRIOT Act.

             •   Related audit reports issued by the FDIC OIG and GAO.




                                                 19
                                                                                                     APPENDIX I

To address our objective related to whether examination procedures were fully and consistently
implemented, we limited our review to CIP and risk assessment-related procedures. In addition,
we obtained information from DSC on examinations conducted after the release of the FFIEC
BSA/AML Examination Manual, issued June 2005, and the updated manual issued July 28,
2006. We limited the sample universe to examinations completed September 1, 2005 to
October 31, 2006. From those examinations, we selected a non-statistical sample of
examinations for 24 FDIC-supervised financial institutions for detailed review. 29 To select the
sample for review, we considered:

     •   size and geographic location of the financial institution and
     •   whether examiners had cited the financial institutions for PATRIOT Act violations.

For the sampled examinations, we reviewed ROEs, supporting work papers, correspondence
files, supervisory and enforcement action information, and other pertinent documentation. We
selected the sampled examinations from DSC’s Atlanta, Kansas City, New York, and San
Francisco regional offices. Additionally, we reviewed system data related to BSA examinations
from DSC’s Virtual Supervisory Information on the Net (ViSION), the automated system used
by DSC to capture data on the results of DSC’s reports of examination, including identified BSA
violations. In addition, we reviewed system data from the Formal and Informal Action Tracking
System, which captures information on supervisory and enforcement actions, and referrals that
the FDIC forwarded to FinCEN in compliance with the 2004 information-sharing MOU between
the FDIC, the other FBAs, and FinCEN.

Additionally, we coordinated with the IG Counsel, Office of Investigations, and other Office of
Audits Directorates and FDIC Office of the Ombudsman.

Internal Controls

We gained an understanding of the internal control activities relevant to the FDIC’s examination
process for BSA and PATRIOT Act compliance by identifying and reviewing applicable policies
and procedures related to the FDIC’s examinations for BSA and PATRIOT Act compliance,
including guidance provided to FDIC examiners (FFIEC BSA/AML Examination Manual, FDIC
Risk Management of Examination Policies, FILs, and Treasury regulations). Additionally, we
interviewed DSC officials in the Washington, D.C., office; DSC representatives in selected
regional and field offices; and the Examiners-in-Charge for the 24 sampled examinations.

Our assessment of internal controls determined that the FDIC has implemented some internal
controls and examination guidance, including interagency examination procedures, related to
examinations of financial institution compliance with the PATRIOT Act. However, controls
related to the implementation of PATRIOT Act compliance programs need improvement, as
indicated in our Results of Audit.




29
 The results of a non-statistical sample cannot be projected to the intended population by standard statistical
methods.

                                                         20
                                                                                    APPENDIX I


Reliance on Computer-Based Data

We used computer-based data and reports that DSC provided from the ViSION system to
identify the universe of examinations conducted from September 1, 2005 through October 31,
2006. Although our audit identified certain inaccuracies in the ViSION data related to BSA and
PATRIOT Act compliance, the data obtained from ViSION were not significant to our
conclusions or recommendations. We also used information obtained from the FDIC’s Formal
and Informal Action Tracking System to identify supervisory and enforcement actions related to
BSA/AML and PATRIOT Act compliance.

Compliance With Laws and Regulations, Government Performance and Results Act, and
Fraud or Illegal Acts

Compliance with Laws and Regulations. We reviewed applicable laws and regulations on
PATRIOT Act compliance. We determined that the FDIC has general laws and regulations that
relate to its overall examination authority (Section 10(b) of the FDI Act and Section 337.12 of
the FDIC Rules and Regulations). The FDIC can rely on its general authority to impose
enforcement actions under Section 8 of the FDI Act as it relates to operating a financial
institution in an unsafe and unsound manner or noncompliance with laws and regulations to take
action for PATRIOT Act compliance. The FDIC also has specific authority as outlined in
Section 8(s) of the FDI Act as it relates to compliance with the BSA.

Government Performance and Results Act. We reviewed the FDIC 2005-2010 Strategic
Plan, the 2006 Annual Performance Plan, and DSC's divisional performance objectives to
determine whether the Corporation and/or DSC had performance goals, objectives, and
indicators or targets that specifically relate to the examination and enforcement of PATRIOT Act
compliance or whether PATRIOT Act issues were generally included in matters related to BSA
examination and compliance.

According to the FDIC 2006 Annual Performance Plan, the FDIC has established the following
strategic goal, objective, and annual performance goals (see Table 4, on the next page) related to
the risk management component of the FDIC’s Supervision Program and to the supervision of
financial institutions for compliance with the BSA/AML and PATRIOT Act.




                                                21
                                                                                             APPENDIX I


Table 4: The FDIC’s Activities to Address the Government Performance and Results Act

  Strategic Goal     Strategic Objective                        Annual Performance Goals
                                         Conduct on-site risk management examinations to assess the overall
                                         financial condition, management practices and policies, and
                                         compliance with applicable laws and regulations of FDIC-supervised
                                         depository institutions.
                    FDIC-supervised      Take prompt and effective supervisory action to address issues
FDIC-supervised
                    institutions         identified during the FDIC examination of FDIC-supervised
institutions are
                    appropriately        institutions that receive a composite Uniform Financial Institutions
safe and sound.                          Rating of “4” or “5” (problem institution). Monitor FDIC-supervised
                    manage risk.
                                         insured depository institutions’ compliance with formal and informal
                                         enforcement actions.
                                         Increase regulatory knowledge to keep abreast of current issues
                                         related to money laundering and terrorist financing.
Source: FDIC’s 2006 Annual Performance Plan.

The FDIC performs risk management examinations that include BSA examinations. Because the
PATRIOT Act amended the BSA, an examination for PATRIOT Act compliance is included in
BSA examinations. BSA compliance is a factor in assessing the willingness and ability of
management to mitigate the operational risks of the bank and compliance with governing laws
and regulations, which are a significant factor in the overall assessment of the condition of the
institution.

In addition, according to the 2006 Annual Performance Plan, the FDIC’s supervision program
promotes the safety and soundness of FDIC-supervised insured depository institutions, protects
consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. As the primary federal regulator of all insured state non-member banks,
the FDIC performs periodic examinations of those FDIC-supervised insured depository
institutions to assess their overall financial condition, management policies and practices, and
compliance with applicable laws and regulations.

In addition to FDIC corporate objectives, DSC has implemented a performance objective to
assist in protecting the infrastructure of the U.S. banking system against terrorist financing,
money laundering, and other financial crimes by implementing a comprehensive industry
outreach and education effort on the BSA, AML, and counter-financing of terrorism issues.

Fraud and Illegal Acts. The nature of the audit objective did not require that we assess the
possibility for fraud and illegal acts. However, during the audit, we were alert to the possibility
of fraud and illegal acts, and no instances came to our attention.

Prior Coverage

The FDIC OIG and the Government Accountability Office (GAO) have issued audit reports that
relate to examination and enforcement of compliance with Title III of the PATRIOT Act.
Table 5, on the next page, provides a synopsis of the prior FDIC audit coverage related to BSA
compliance.



                                                     22
                                                                                                  APPENDIX I



Table 5: Synopsis of FDIC OIG Prior Audit Coverage of BSA and PATRIOT Act
Compliance
FDIC's Supervision of a Financial Institution's Compliance With the Bank Secrecy Act (Report No. 05-008),
March 2005
Audit      To determine whether the FDIC adequately fulfilled its responsibilities to monitor and assure a
Objective financial institution’s compliance with the BSA. We reviewed the (1) circumstances regarding the
           management of bank assets acquired from the FDIC, (2) adequacy of the FDIC’s supervisory actions
           at the acquiring institution, and (3) FDIC’s process for reporting BSA violations to the Treasury and
           law enforcement agencies.
Audit      The audit concluded that responsibilities to ensure compliance with the BSA were not adequately
Results    fulfilled by either institution management or the FDIC. Corporate governance at the financial
           institution and two former institutions was not sufficient to ensure that they met BSA requirements.
           The FDIC's examinations identified significant BSA violations and deficiencies, but the examinations
           generally lacked sufficient follow-up on corrective measures promised, but not implemented, by
           institution management. Consequently, weak BSA compliance programs persisted for extended
           periods. In addition, the FDIC should have more thoroughly considered the impact of BSA
           compliance violation and deficiency histories in connection with the Corporation's decision to qualify
           the potential acquirers of a failed institution.

Supervisory Actions Taken for Bank Secrecy Act Violations (Report No. 04-017), March 31, 2004
Audit      To determine whether DSC adequately followed up on BSA violations reported in examinations of
Objective FDIC-supervised financial institutions to ensure that they take appropriate corrective action. We
           specifically reviewed the FDIC’s process for follow-up and other supervisory actions and the process
           and procedures for describing deficiencies and citing violations related to BSA noncompliance.
Audit      The audit identified several areas in which the FDIC needed to strengthen its supervisory oversight
             T




Results    for BSA violations. Further, the report noted inconsistencies in describing BSA compliance program
           deficiencies and citing financial institutions for noncompliance. In addition, the FDIC’s supervisory
           actions had not ensured to the greatest extent possible that institutions were in compliance with both
           the Treasury’s and the FDIC’s AML requirements. The FDIC needed to strengthen its follow-up
           process for BSA violations and had initiatives underway to reassess and update its BSA policies and
           procedures.

The FDIC’s Implementation of the USA PATRIOT Act (Report No. 03-037), September 5, 2003
Audit     To determine whether the FDIC had developed and implemented adequate procedures to examine
Objective financial institutions’ compliance with the PATRIOT Act.
Audit     The audit concluded that the FDIC’s BSA examination procedures either partially or fully covered
Results   six of the eight applicable AML provisions contained in Title III of the PATRIOT Act and, therefore,
          did not cover two of the areas. With respect to those Title III provisions that required new or revised
          examination procedures, DSC was in the process of coordinating its efforts with other regulatory
          agencies and was drafting new or revised examination procedures to implement the provisions.
          However, DSC had not issued any new or revised examination procedures because it was either
          waiting for the Treasury to issue final rules implementing Title III provisions or coordinating the
          issuance of uniform procedures with an interagency steering committee.

Examiner Assessment of Bank Secrecy Act Compliance (Report No. 01-013), March 30, 2001
Audit      To determine the extent to which FDIC safety and soundness examinations reviewed institutions’
Objective compliance with the BSA.
Audit      The OIG recommended improvements in the FDIC’s documentation of work related to the BSA.
Results
Source: OIG synopsis of FDIC OIG reports related to BSA and PATRIOT Act compliance.




                                                        23
                                                                                   APPENDIX I

The GAO has also conducted audits related to PATRIOT Act compliance as indicated below.

Opportunities Exist for FinCEN and the Banking Regulators to Further Strengthen the
Framework for Consistent BSA Oversight, GAO-06-386, dated April 2006.

The audit objective was to determine how (1) federal banking regulators examine for BSA
compliance and identify and track violations to ensure timely corrective action and
(2) enforcement actions are taken for violations of the BSA. The audit recognized the actions
that the FDIC and other FBAs, along with FinCEN, have taken to strengthen the framework for
BSA compliance, including more consistent examination procedures, recent improvements to
automated tracking systems used to monitor BSA compliance, and efforts to share BSA-related
information under an information-sharing MOU with FinCEN. However, the report
recommended that FBAs and FinCEN:

   •   communicate emerging risks through updates of the interagency examination manual and
       other guidance;

   •   periodically review BSA violation data to determine if additional guidance is needed; and

   •   jointly assess the feasibility of developing a uniform classification system for BSA
       compliance problems.

 FinCEN and the FBAs supported GAO’s recommendations and expressed commitment to
 ongoing interagency coordination to address them.

USA PATRIOT Act Additional Guidance Could Improve Implementation of Regulations
Related to Customer Identification and Information Sharing Procedures, GAO-05-412, dated
May 2005. The audit focused on Sections 326 and 314 of Title III of the PATRIOT Act. The
audit objective was to determine how:

   •   the government “developed the regulations, educated the financial industry on them, and
       challenges it encountered”;

   •   regulators have updated guidance, trained examiners, and examined firms for
       compliance; and

   •   the new regulations have affected law enforcement investigations.

The GAO reported, in part, that although the FDIC and other FBAs have issued examination
guidance related to Section 326 of the PATRIOT Act, examinations did not always determine
whether financial institutions had adequately developed a CIP appropriate for their business lines
and types of customers. The GAO also reported that this aspect of CIP is critical for ensuring
that the identification and verification procedures are appropriate for the types of customers and
accounts that are at higher risk of being linked to money laundering and terrorist activities. In
addition, the GAO reported that some examinations also revealed implementation difficulties
related to CIP that could lead to inconsistencies in the way examiners conduct examinations.


                                               24
                                                                                 APPENDIX I

The GAO concluded that examiners and financial institutions may not always understand the
requirement for a comparison of customer names against any list of known or suspected terrorists
or terrorist organizations.

The GAO recommended that:

   •   the Treasury, through FinCEN, and with the federal financial regulators and state
       regulatory agencies, develop additional guidance on ongoing implementation issues.

   •   FinCEN work with the federal financial regulators to develop additional guidance for
       examiners to improve examinations of compliance with CIP requirements.




                                              25
                                                                                                                                          APPENDIX II

        STATUS OF REGULATIONS AND EXAMINATION PROCEDURES FOR PATRIOT ACT REQUIREMENTS
                                                                                                                                   Procedures included in
                     a                           PATRIOT Act Amendments to BSA                               Final Rule              FFIEC BSA/AML
    Title III Section
                                                                                                            Effective Date       Examination Manual, issued
                                                                                                                                         July 2006
Section 311-Special           Allows the Treasury to impose special measures related to foreign                        b                    Yes
                                                                                                               Various
Measures for Financial        jurisdictions, financial institutions, and other accounts identified as
Institutions                  primary money-laundering concerns.

Section 312-Special Due       Requires financial institutions that provide private banking accounts or        July 5, 2006                  Yes
Diligence                     correspondent accounts for foreign persons to establish enhanced due
                              diligence procedures for those accounts. The section also requires
                              enhanced due diligence for certain correspondent and private banking
                              accounts. The effective date for compliance with the rule for new
                              correspondent and private banking accounts was July 5, 2006 and
                              October 1, 2006 for existing correspondent and private banking accounts.
                              .
Section 313-Prohibition on    Prohibits certain financial institutions from providing correspondent       December 24, 2002                 Yes
U.S. Correspondent            accounts to foreign banks with no physical presence in any country.
         c
Accounts

Section 314-Cooperative       Requires the Treasury to issue regulations to encourage financial           September 26, 2002                Yes
Efforts to Deter Money        regulators and law enforcement officials to share information with
            d                 financial institutions regarding persons reasonably suspected of engaging
Laundering
                              in terrorist acts or money laundering activities.

Section 319-Forfeiture of     Requires certain financial institutions that maintain correspondent         December 24, 2002                 Yes
      c                       accounts for foreign banks to maintain records regarding foreign banks.
Funds

Section 325-Concentration     Authorizes the Treasury to issue regulations concerning the maintenance      Final rule has not               Yes
Accounts at Financial         of concentration accounts by financial institutions.                                        e
                                                                                                             been issued
Institutions

Section 326-Verification of   Amended the BSA to require that Treasury prescribe regulations to set       June 9, 2003 with an              Yes
Identification                minimum standards for identifying customers seeking to open accounts at     implementation date
                              financial institutions.                                                      of October 1, 2003




                                                                                 26
                                                                                                                                               APPENDIX II


                                                                                                                                       Procedures included in
                      a                         PATRIOT Act Amendments to BSA                                   Final Rule               FFIEC BSA/AML
     Title III Section
                                                                                                               Effective Date        Examination Manual, issued
                                                                                                                                             July 2006
Section 352-Anti-Money        Requires financial institutions to establish anti-money laundering               April 24, 2002                   Yes
                   f          programs and authorizes the Treasury to issue regulations for minimum           interim final rule
Laundering Programs
                              standards. Under existing provisions of the BSA and Section 8 of the FDI
                              Act, insured depository institutions are already directed to have such
                              programs. Therefore, financial institutions that have established a BSA
                              compliance program are already in compliance with the AML
                              requirements under the PATRIOT Act. In an interim final rule, effective
                              November 6, 2002, Treasury extended the applicability date for other
                              financial institutions such as pawnbrokers, insurance companies, and
                              travel agencies.

Source: OIG review of the FFIEC BSA/AML Examination Manual, dated July 28, 2006; PATRIOT Act Title III requirements; and Federal Register notices.
a
  Some of the names of Title III sections have been abbreviated for the purposes of this table.
b
  Treasury issues a final rule for each of the countries, entities, financial institutions, or foreign jurisdictions designated as a “primary money-laundering
concern.”
c
  Sections 313 and 319 are usually referred to and discussed together because both sections amend 31 U.S.C. §5318.
d
  Cooperative Efforts to Deter Money Laundering is also referred to as Information Sharing.
e
  According to the FDIC, after the passage of the PATRIOT Act, the Treasury convened a working group for Section 325, but no rulemaking proposal for this
section has yet been issued.
f
  The FDIC had already established applicable examination procedures before passage of the PATRIOT Act.




                                                                               27
               CUSTOMER IDENTIFICATION PROGRAM REQUIREMENTS

The final rule for Section 326 of the PATRIOT Act, which became effective on June 9, 2003,
provides a framework that includes the minimum standards that financial institutions must
consider when identifying customers. Banks should conduct a risk assessment of their customer
base and product offerings, and in determining the risks, consider the types of accounts offered;
methods of opening accounts; types of identifying information available; and the bank’s size,
location, and customer base. The rule allows banks to develop a CIP tailored to the risk profile
of the bank and impose risk-based procedures.

According to the FFIEC BSA/AML Examination Manual, a financial institution’s CIP must
include procedures:

     •   specifying information that will be obtained from each customer when accounts are
         opened;

     •   verifying the identity of the customer within a reasonable period of time after the account
         is opened based on the financial institution’s risk;

     •   providing customers with adequate notice that the bank is requesting information to
         verify their identities;

     •   describing when it will use documents, nondocumentary methods, or a combination of
         both to verify identity;

     •   specifying the minimum acceptable documentation when a bank uses documentation
         methods to verify a customer’s identity;

     •   outlining methods to be used when banks use nondocumentary methods to verify a
         customer’s identity;

     •   addressing situations where, based on its risk assessment of a new account opened by a
         customer who is not an individual, the bank will obtain information about individuals
         with authority or control over such accounts, including signatories;

     •   determining whether the customer appears on any federal government list of known or
         suspected terrorists or terrorist organizations; 30 and

     •   addressing recordkeeping and retention of identifying information for a period of 5 years
         after the account is closed (for credit cards, the retention period is 5 years after the
         account is closed or becomes dormant).


30
  According to the FFIEC BSA/AML Examination Manual, there are no designated government lists specifically
for CIP purposes. Customer comparisons to lists required by the OFAC and information sharing between federal
law enforcement agencies and financial institutions, as outlined in 31 C.F.R. 103.100 of the Treasury’s financial
recordkeeping and reporting requirements, remain separate and distinct.

                                                        28
                                                                                                       APPENDIX IV

In addition, procedures should address circumstances in which the bank cannot form a
reasonable belief that it knows the true identity of the customer. A financial institution is
allowed to reasonably rely on another financial institution to perform its CIP procedures when
certain conditions are met, including when the other institution is supervised by a federal
financial regulator and establishes a contractual arrangement for annual certification that the
institution has implemented an AML program.

The FDIC expanded Section 326.8 of its rules and regulations to require each FDIC-supervised
institution to implement a CIP that complies with 31 C.F.R. 103.121 and incorporate the CIP into
a bank's written, board-approved BSA compliance program (with evidence of such approval
noted in the board meeting minutes). The National Commission on Terrorist Attacks Upon the
U.S. and Monograph on Terrorist Financing 31 stressed the importance of Section 326 of the
PATRIOT Act and recognized that effective customer identification may deter the use of
financial institutions by money launderers and terrorists.




31
  The 9/11 Commission Report, Final Report of the National Commission on Terrorist Attacks Upon the U.S. and
the accompanying Monograph on Terrorist Financing included information on combating terrorist financing and the
role of financial institutions in the United States, including the terrorists’ use of financial institutions in the planning
and financing of those attacks.

                                                            29
                       APPENDIX IV

CORPORATION COMMENTS




          30
         APPENDIX IV




.

    31
                                                                                                 APPENDIX V



                     MANAGEMENT RESPONSE TO RECOMMENDATIONS

This table presents the management response on the recommendations in our report and the
status of the recommendations as of the date of report issuance.


     Rec.       Corrective Action: Taken            Expected          Monetary      Resolved:a     Open or
     No.               or Planned                  Completion         Benefits      Yes or No      Closedb
                                                      Date
    1 and 2    DSC will remind examination        March 30, 2008          $0            Yes          Open
               staff of supervisory
               expectations and the
               appropriate utilization of
               guidance.


a
    Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent
                   with the recommendation.
               (2) Management does not concur with the recommendation, but planned alternative action is acceptable
                   to the OIG.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount.
                   Monetary benefits are considered resolved as long as management provides an amount.
b
  Once the OIG determines that the agreed-upon corrective actions have been completed and are effective, the
recommendation can be closed.




                                                         32
